<html>
<title> - ACCESS TO CONSERVATION PROGRAMS BY HISTORICALLY UNDERSERVED FARMERS AND RANCHERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  ACCESS TO CONSERVATION PROGRAMS BY HISTORICALLY UNDERSERVED FARMERS
                              AND RANCHERS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           DECEMBER 17, 2019
                               __________

                           Serial No. 116-28

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
39-767 PDF                WASHINGTON : 2020




                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

MARCIA L. FUDGE, Ohio                DOUG LaMALFA, California, Ranking 
TOM O'HALLERAN, Arizona              Minority Member
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
CYNTHIA AXNE, Iowa                   RALPH LEE ABRAHAM, Louisiana
                                     TRENT KELLY, Mississippi

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii)



                             C O N T E N T S

                              ----------                              
                                                                   Page
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................     3
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     2

                               Witnesses

White, Irvin D., rancher, Louisa, VA.............................     4
    Prepared statement...........................................     5
LaFleur, Kimberly J., Owner and Operator, Mayflower Cranberries, 
  Plympton, MA...................................................     9
    Prepared statement...........................................    10
Robinson, Esq., Quinton N., Policy Advisor, Rural Coalition/
  Coalicion Rural, Washington, D.C...............................    13
    Prepared statement...........................................    14
Sanchez, LTC Andrew J., (Ret.), USAF; farmer/rancher, Sierra 
  County, NM.....................................................    16
    Prepared statement...........................................    18

 
  ACCESS TO CONSERVATION PROGRAMS BY HISTORICALLY UNDERSERVED FARMERS
                            AND RANCHERS

                              ----------                              


                       TUESDAY, DECEMBER 17, 2019

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 11:22 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Abigail 
Davis Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, O'Halleran, 
Pingree, Axne, Plaskett, Peterson (ex officio), LaMalfa, and 
Allen.
    Staff present: Prescott Martin III, Felix Muniz, Jr., 
Alison Titus, Josh Maxwell, Ricki Schroeder, Patricia Straughn, 
Dana Sandman, and Jennifer Yezak.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. This hearing of the Subcommittee on Conservation 
and Forestry entitled, Access to Conservation Programs by 
Historically Underserved Farmers and Ranchers, will come to 
order.
    Good morning and thank you very much for being here today 
as we review access to conservation programs by historically 
underserved farmers and ranchers.
    Sustainable agriculture must be a welcoming and rewarding 
profession, especially for our historically underserved 
producers, which includes our minority, women, beginning, and 
veteran farmers and ranchers, as well as those who have limited 
financial resources.
    Historically underserved farmers face a range of unique 
challenges. Some of their families have been farming for 
generations, but have faced discrimination and insufficient 
access to capital and credit. Others have limited farming 
experience or come up against misinformed stereotypes, and they 
may find that existing tools do not adequately meet their 
needs.
    Title II programs seek to protect our soils, water, 
wildlife, and other natural resources, while improving 
production of food and fiber. Achieving this goal requires that 
we support our producers and account for the variety of 
challenges that they face.
    Congress has enacted a number of policies designed to 
address the needs of historically underserved producers, 
specifically the 2018 Farm Bill built upon this effort, 
establishing additional tools and incentives to overcome 
barriers and bolster across the board participation.
    Data show us that historically underserved farmers and 
ranchers are increasingly accessing conservation programs. 
While this trend is encouraging, historically underserved 
producers continue to account for a disproportionately small 
share of agricultural producers relative to their numbers in 
the general population.
    We must continue to invest in and shape conservation 
programs so that they better account for structural barriers 
and recognize the contributions of historically underserved 
farmers and ranchers. A continued emphasis on equity and the 
delivery of title II programs is needed to ensure broad 
participation in conservation programs.
    I hope with this hearing we can delve into the substantial 
barriers that stand between historically underserved producers 
and full utilization of USDA conservation programs, that we can 
discuss the implementation of targeted policies included in the 
2018 Farm Bill, and build a better pathway towards attracting 
more farmers to conservation programs.
    In consultation with the Ranking Member, and pursuant to 
Rule XI(e), I want to make Members of the Subcommittee aware 
that other Members of the full Committee may join us today.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    Good morning and thank you for being here today as we review access 
to conservation programs by historically underserved farmers and 
ranchers.
    Sustainable agriculture must be a welcoming and rewarding 
profession, especially for our historically underserved producers, 
which includes our minority, women, beginning, and veteran farmers and 
ranchers, as well as those who have limited financial resources.
    Historically underserved farmers face a range of unique challenges. 
Some of their families have been farming for generations but have faced 
discrimination and insufficient access to credit. Others have limited 
farming experience or come up against misinformed stereotypes, and they 
may find that existing tools do not adequately meet their needs.
    Title II programs seek to protect our soils, water, wildlife, and 
other natural resources while improving production of food and fiber. 
Achieving this goal requires that we support our producers and account 
for the variety of challenges they face.
    Congress has enacted a number of policies designed to address the 
needs of historically underserved producers. Specifically, the 2018 
Farm Bill built upon this effort, establishing additional tools and 
incentives to overcome barriers and bolster across-the-board 
participation.
    Data shows us that historically underserved farmers and ranchers 
are increasingly accessing conservation programs. While this trend is 
encouraging, historically underserved producers continue to account for 
a disproportionately small share of agricultural producers relative to 
their numbers in the general population. We must continue to invest in 
and shape conservation programs so that they better account for 
structural barriers and recognize the contributions of historically 
underserved farmers and ranchers.
    A continued emphasis on equity in the delivery of title II programs 
is needed to ensure broad participation in conservation programs. I 
hope with this hearing we can delve into the substantial barriers that 
stand between historically undeserved producers and fully utilizing 
USDA conservation programs, discuss the implementation of targeted 
policies included in the 2018 Farm Bill, and build a better pathway 
toward attracting more farmers to conservation programs.

    The Chair. I now recognize Ranking Member LaMalfa for his 
opening statement.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Good morning and thank you to Chair Spanberger 
for calling today's hearing and being such a good working 
partner here, so I appreciate it.
    Today we are reviewing access to the nation's voluntary 
conservation programs. Over the last 20 years, Congress has 
made significant investments to these programs by providing our 
farmers and ranchers the tools necessary to protect and 
conserve not only land but their way of life.
    Congress has also made a conscious effort to make certain 
underserved producers, including the socially disadvantaged, 
limited resource, and beginning farmers and ranchers that are 
not overlooked when applying for assistance.
    Since 2008, both the EQIP Program, the Environmental 
Quality Incentives Program, and the CSP, the Conservation 
Stewardship Program, have reserved five percent for new and 
beginning farmers to encourage the adoption of conservation 
practices by our next generation of producers. Additionally, 
another five percent is set aside for socially disadvantaged 
farmers and ranchers in both programs to help provide access to 
this conservation funding.
    It should be noted, over the last decade NRCS has exceeded 
these allocations and obligated over 16 percent of CSP funding, 
and nearly 33 percent of EQIP funding to beginning farmers and 
historically underserved producers.
    Since 2014, Congress has also recognized the contributions 
of our men and women in uniform, by improving outreach and 
assistance to our veterans by authorizing a military veterans 
agriculture liaison at USDA, and by creating new programs and 
priorities to help in their transitions to careers in 
agriculture.
    Recently, the 2018 Farm Bill improved upon all these 
efforts by encouraging USDA to provide outreach to historically 
underserved farmers and ranchers to boost participation in the 
Regional Conservation Partnership Program, and to provide 
advanced payments in EQIP, just to name a few.
    I do want to mention that the deliberation of the last farm 
bill brought forward many concerns regarding access to land. 
There is a significant reason why the Conservation Reserve 
Program was reformed to eliminate government competition with 
farmers for productive land by reducing rental rates, as well 
as expanding the Transition Incentive Program, known as TIP. 
Additionally, NRCS has engaged partnerships through several 
cooperative agreements for outreach, and since 2012 they have 
worked in a collaborative effort to provide outreach and forest 
management technical assistance to the heirs and property 
landowners.
    Sustainable Forestry and African-American Land Retention 
Partnership, which includes the Forest Service and the U.S. 
Endowment for Forestry and Communities, was initially a 2 year 
project in three states. Since then, the pilot has exceeded 
expectations and is in the process of adding new partners and 
more than doubling the number of states across the Southeast.
    We have a great set of witnesses here today. I look forward 
to hearing the continued discussion on what can be done to 
improve this access to conservation programs for all producers. 
Indeed it is very important in my own neighborhood there with 
the rice industry and the great environmental and wildlife 
benefits provided there.
    I yield back. Thank you, Madam Chair.
    The Chair. Thank you, Mr. LaMalfa.
    The chair would recognize, or would request that other 
Members submit their opening statements for the record so 
witnesses may begin their testimony and to ensure that there is 
ample time for questions.
    I would like to welcome our witnesses here today. Thank you 
so much for being with us.
    It is my pleasure and privilege to welcome Mr. Irvin 
Dulaney White who farms in Louisa, Virginia, back home in the 
7th District. Mr. White raises 250 cow-calf pairs, or raises 
250 cow-calf pairs on an operation on eight different 
properties, totaling more than 2,000 acres. In addition to his 
cattle operation, he designs and installs rotational grazing 
systems, fencing, working pens, alternative watering systems, 
and stream crossings for farmers throughout central Virginia.
    Our next witness is Ms. Kimberly LaFleur. Ms. LaFleur owns 
and operates a 112 acre cranberry farm and agritourism business 
in Plympton, Massachusetts. She is also the State Advisor and 
Program Director for the Massachusetts FFA Association, and an 
independent consultant to agricultural organizations. Ms. 
LaFleur serves as the Chair of the Plymouth County Conservation 
District's Board.
    Our third witness is Quinton Robinson, Esq. Mr. Robinson is 
a native of Gordon, Georgia, where he grew up assisting his 
family with the production and marketing of vegetable crops. 
Quinton is a practicing attorney and serves as the Policy 
Advisor for the Rural Coalition.
    Our final witness is LTC Andrew J. Sanchez, a 5th-
generation operator and the majority owner of his family's 
cattle ranch in Sierra County, New Mexico. Mr. Sanchez served 
more than 8 years of active duty with the U.S. Navy, and 
currently serves as a Lieutenant Colonel in the New Mexico Air 
National Guard.
    We will now proceed to hearing from our witnesses. Each of 
you will have 5 minutes to present testimony. When the light in 
front of you turns yellow, that indicates there is 1 minute 
left to complete your testimony.
    Mr. White, would you please begin when you are ready.

        STATEMENT OF IRVIN D. WHITE, RANCHER, LOUISA, VA

    Mr. White. Yes, ma'am. Thank you, Chair Spanberger, Ranking 
Member LaMalfa, and the distinguished Members of the Committee.
    The first thing I want to tell you is just it is a real 
honor to be here. And as I was trying to get my thoughts 
together for this, which is obviously not something I am very 
good at, so excuse me for the first minute or so here. 
Hopefully I will get it all together. But talking to the 
farmers that I work with to try and get my thoughts together 
here, I talked to extension agents, I talked to Farm Bureau, I 
talked to the waitress at the Mexican restaurant we went to on 
Sunday night. And what was amazing is every one of them thought 
that this was good, it was positive, and the respect they had 
for what you people do was, it was universal through all of 
them. I just want to tell you all that the people back home in 
my district, and I am sure all the other districts, are looking 
to you and are appreciative of what you do every day, and it is 
a big deal. Thank you for having me and I am sure the others as 
well are glad to be here and have an opportunity to bring 
something to hopefully shape things for the future.
    My bio you talked through, I am kind of like a graduate of 
the Young and Beginning Farmer Program. I started farming in 
the late 1990s after I graduated from the University of 
Virginia, and I didn't grow up on a farm. I decided this is 
what I want to do, and it has been a long road. I had a great 
plan at 25 years old of how it was all going to work out, and I 
used the programs, I got through it, and I was like definitely 
by the time I am 35 I am just going to be farming, it is all 
going to be just roses. I am going to have a truck and a 
tractor and a few cows and I will just be on this farm. And now 
20 years later it hadn't quite worked out but it is all great. 
I wouldn't change it for a minute.
    But what I have been able to do with working with NRCS and 
the Soil and Water Districts and extension, is those people 
have helped me work my plan down and figure out a lot of 
things, and it is very important to keep this support. I mean, 
these programs are very, very good and used by farmers every 
day, and you know, getting that extra set of eyes out on the 
farm to help people hone in and work through ideas and how 
things change it is really making things better on the farm 
every day for people. It is--and the Young and Beginning Farmer 
Program is what I have come through. It is what I do all day 
every day, and getting out there and working with the young 
farmers now and helping them out to where things are always 
changing, the market conditions they can mess everything up, 
but if you are doing things right, if you use the conservation 
programs and you are building up your farm, you can weather 
these storms and keep moving forward.
    I am sorry for flopping here, but I am going to give back 
the rest of my time and move on to Ms. LaFleur next to me.
    Thank you.
    [The prepared statement of Mr. White follows:]

       Prepared Statement of Irvin D. White, Rancher, Louisa, VA
1. Brief Overview of Farming Operation
    After buying his first herd of cattle in 1998 with a Farm Credit 
loan, Irvin now rents over 2,000 acres across three counties where he 
raises about 250 cow-calf pairs on eight different properties. He also 
manages an additional 100 cow-calf pairs for landowner partners. 
Irvin's His forage-based operation
    Implements rotational grazing, attempting to minimize additional 
feeding. Weather permitting, Irvin feeds hay for approximately sixty 
days per year. Currently, Irvin produces about half the hay needed to 
support the herd, the remainder is brought in from off-site. Irvin 
manages the forage first and foremost making sure his stocking rates 
are well below the carrying capacity of the land. His fertilizer regime 
is based on soil-testing, maximizing the use of poultry-litter where 
appropriate and use commercial fertilizer to bring up nutrient values 
where the litter falls short.
    Irvin is building his herd to maximize upon the genetics of those 
cattle which thrive on the local forage, reducing the need of 
supplemental feed, with each generation showing better adaptation to 
the local environment. Currently, Irvin markets steer calves in 
tractor-trailer lots that have been we[a]ned and backgrounded working 
with the Central Virginia Cattleman's Association. The top-end of the 
heifers are kept as replacements or are sold as breeding stock to other 
local producers. Throughout the years, Irvin has sold beef to friends 
and family. Irvin's long term goal for the cattle operation is to 
maximize local marketing and consumption of the farm-raised, grass-
finished beef.
2. Personal Involvement in USDA Conservation Programs
    As a fencing contractor and farm consultant, Irvin is personally 
involved in explaining and promoting USDA conservation programs to a 
wide audience, from third generation farmers to investment bankers and 
corporate attorneys looking to live out their pastoral dreams in 
retirement. On a daily basis, he explains how programs would be 
implemented on their farms, the benefits these practices can have on 
their operation and management, and he provides a solid picture of the 
financial benefits offered by most of the programs.
    As a farmer, Irvin has personally participated in EQIP and CSP. As 
a tenant farmer, he has assisted with the enrollment of the landowner's 
property in EQIP, CREP, and CSP. The various conservation practices 
that have been implemented with these programs in addition to stream 
and division fencing along with an alternative watering system are as 
follows: nutrient management, waste utilization through a poultry 
litter transport program (taking poultry litter from adjacent high 
phosphorus counties and applying to pasture according to a nutrient 
management plan), pasture improvement using pasture conditioning 
scores, stockpiling forages, native grasses/legumes, prescribed 
grazing, and critical area planting.
3. Challenges and Opportunities for New/Beginning Farmers
    Challenges:

    Overall, new/beginning farmers face a suite of challenges, even 
just one of which might be enough to defer a dream of agriculture. In 
general, the biggest issues beginning farmer face are:

  <bullet> Limited capital resources, lack of cash.

  <bullet> Variable input cost and fluctuation in market returns 
        (Beginning Farmers aren't as resilient to volatility).

  <bullet> Land ownership limitations:

    <ctr-circle> Development pressure and corporate interest ownership 
            is increasing leading to:

      <bullet> land not being affordable/available.

      <bullet> inability to get long term leases.

      <bullet> less incentive to make improvements in production, 
            infrastructure and equipment.

  <bullet> Most beginning farmers still rely on off farm employment for 
        income which can limits the ability to sustain and grow their 
        farm enterprise.

    Opportunities:

    New farmers are early adapters, willing to try new, innovative 
approaches and serve as examples to help educate others in the 
agricultural community. They provide a great opportunity for research 
and experimental farming.
4. Farm Bill polices which impact beginning farmers
    Challenges:

    Time Allowance for New/Beginning Farmers:

    The USDA provides the following points of definition for a 
Beginning Farmer/Rancher:

  <bullet> Has not operated a farm or ranch, or who has operated a farm 
        or ranch for not more than 10 consecutive years. This 
        requirement applies to all members of a legal entity, and who

  <bullet> Will materially and substantially participate in the 
        operation of the farm or ranch.

  <bullet> In the case of a contract with an individual, individually 
        or with the immediate family, material and substantial 
        participation requires that the individual provide substantial 
        day-to-day labor and management of the farm or ranch, 
        consistent with the practices in the county or state where the 
        farm is located.

  <bullet> In the case of a contract made with a legal entity, all 
        members must materially and substantially participate in the 
        operation of the farm or ranch. Material and substantial 
        participation requires that the members provide some amount of 
        the management, or labor and management necessary for day-to-
        day activities, such that if the members did not provide these 
        inputs, operation of the farm or ranch would be seriously 
        impaired.

    This 10 year window is often not an adequate length of time for a 
new farmer to get off the ground. There are various contributing 
reasons:

  <bullet> Lack of awareness of government conservation programs in the 
        beginning farmer community. Farmers are often several years 
        into their farming operation before they learn of these 
        conservation opportunities. They can end up ``aging out'' 
        before completing all the work that needs to be done.

    <ctr-circle> Young farmers who were raised and participated in the 
            agricultural community are best served by this current 
            structure. They have an established network for support, 
            and they are able to easily access the assistance needed.

    <ctr-circle> Individuals who are new to farming not only need to 
            gain technical knowledge, they must find their place and 
            their connections within this often closed-off community.

    Proposed solution:

    Don't start the clock when the producer plants his first seed/buys 
his first cow. Either push back the start date of the 10 year window to 
when the first USDA conservation contract is signed, when the farm is 
registered with FSA, or apply a completely different metric like 
establishing a threshold for success, such as farm-based income.
Existing Resource Concern-Based Eligibility
    Having eligibility based on existing resource concerns can be an 
impediment to new farmers who want to wisely manage their natural 
resources from the start. Until there is a problem, they are not 
eligible for funding. In addition, it is not uncommon for beginning 
farmers to install conservation programs on their own before becoming 
aware of governmental programs. New farmers coming from a diverse 
background often come to farming as a result of research and 
observation filled with ideas they wish to try. They come to the field 
ready to implement what they have heard about and studied. It would be 
beneficial to new farmers to be able to take these improvements into 
consideration--either as points on an application or for potential 
reimbursement. Finally, new farmers often only have access to small 
tracts of land. These smaller areas have fewer resource concerns just 
based on size. In addition, scoring projects for EQIP where points are 
awarded based on a whole-farm approach can create such large projects 
as to be cost-prohibitive to the new farmer.
Government Collaboration/Efficiency of Operations
    Once aware there are governmental conservation programs and 
resource professionals available to a new farmer, navigating the matrix 
of acronyms and agency roles can be a full-time job. With budget cuts 
reducing educational staff (through such organizations as the 
Cooperative Extension), there is a greater burden and work load placed 
on local SWCD and NRCS staff. Encouraging partnership across Federal 
and state agencies would reduce the stress and challenge to any farmer. 
Accessibility to a local USDA office and staff can be challenging due 
to office location, number of available staff and hours of operation. 
Co-located offices, a streamlined system for paperwork and enrollment, 
and similar program requirements would offer a greater service to the 
agricultural community. A centralized clearinghouse to guide a new 
farmer through the agencies and where to go for help would be a 
tremendous start. Keeping these agricultural experts funded would be 
even better.
Ownership of Land Requirements
    New farmers more than most struggle with the control of land 
requirements within USDA programs. Unless coming from an agricultural 
or wealthy background, land ownership is not a reality for most new 
farmers. Piecing together rented to land to have a large enough 
operation to be profitable is an incredible hurdle. Maintaining Control 
of Land for contract terms and especially practice lifespan is 
challenging on rented/leased property. In addition, until a farmer is 
implementing these conservation practices on their own land, it is a 
large financial risk/investment to install infrastructure such as 
fencing and water systems on land which they may not farm the following 
season.
Lack of Innovation of Programs
    New farmers who have chosen the field of agriculture are usually 
those who have researched and studied their future profession. These 
individuals are ripe with ideas and ready to experiment. Often the 
government programs and practices are not quickly responsive to new or 
innovative farming practices.

    Opportunities:
Agricultural Assistance from Passionate Experts
    New/beginning farmers have access to free, local, experienced, 
technical assistance through local USDA offices and staff. In addition, 
the 2018 Farm Bill created a National Beginning Farmer Coordinator 
position at USDA as well as designated coordinators in each state to 
assist with outreach.
Connecting New/Beginning Farmers with Land
    FSA land contract guarantees are a tool to help retiring farmers 
get assurances on the future of their land and financial interests when 
selling to a new farmer or rancher--and to help new and beginning 
farmers enter into rent-to-own situations. In addition, increases in 
funding for the Conservation Reserve Program (CRP) Transition 
Incentives Program from $33 million to $50 million over the next 5 
years includes $5 million for dedicated outreach to connect retiring 
farmers with beginning farmers, veterans, and farmers of color. The 
bill also expands eligibility to all CRP contract holders, not just 
retiring farmers.
Flexible Funding Structure/Higher Reimbursement Rates for Beginning 
        Farmers
    Between FSA's willingness to work with those not able to get 
traditional funding to higher reimbursement rates and NRCS's 
flexibility with reimbursement rates and timing, the farm bill presents 
many economic incentives for new farmers. For example, the 2018 Farm 
Bill ensures that all beginning and socially disadvantaged farmers 
enrolling in the Environmental Quality Incentives Program (EQIP) have 
the option to receive 50 percent of their cost-share payment up front 
for material costs, labor, equipment rental, etc. In addition, the same 
historically disadvantaged groups may be eligible for increased payment 
rate to support implementation of conservation practices and 
conservation plans. USDA also offers beginning farmers with limited 
capital the flexibility to spread out the implementation of a project/
contract over several years. Also, Beginning Farmers have access to a 
special Beginning Farmer Fund Pool (5% of total allocation in each 
state). Given that funding is competitive it gives them a little 
advantage having access to their own fund pool while getting started to 
not have to compete with well-established farmers with previous program 
participation history and experience. In short, a minimum of 5% of NRCS 
annual funding goes directly to Socially Disadvantaged Farmers 
including Beginning Farmers. This means that a higher percentage of 
financial assistance is paid to beginning farmers.
Continued Support for Farmers Beyond Basic Infrastructure
    From both a financial and a management perspective, the 
Conservation Stewardship Program (CSP) makes a huge difference in a 
farming operation. Once the majority of the infrastructure has been 
installed, the CSP payment can carry a farmer through necessary 
maintenance and improvements to reach their management goals. Having a 
moderate annual payment is a great help to keep a farmer moving toward 
full-farm conservation. In addition, the annual review is a great 
opportunity for a farmer and NRCS staff to interface and evaluate goals 
and management. More annual practices with associated annual payments 
would help the practices with longer contracts be better maintained and 
better utilized.

    The Chair. Thank you very much, Mr. White. I understand 
completely. I am sure you noticed I fumbled a couple of the 
words in my opening statement as well, but I am so grateful 
that you are here.
    Mr. White. Yes.
    The Chair. We certainly do this more often and we all make 
mistakes, but I thought your opening statement was fantastic 
and I thank you so much for being here.
    Mr. White. The farmers back home said if I could just get 
you all to sit in the back of the truck and we go for about a 2 
hour ride, I could really explain things a lot better.
    The Chair. Well, as a Virginian, be careful what you ask 
for, Mr. White. Thank you so much for your comments.
    And, Ms. LaFleur, you may begin whenever you are ready.

STATEMENT OF KIMBERLY J. LaFLEUR, OWNER AND OPERATOR, MAYFLOWER 
                   CRANBERRIES, PLYMPTON, MA

    Ms. LaFleur. Good morning, Chair Spanberger, Ranking Member 
LaMalfa, and Members of the Subcommittee. Thank you for 
inviting me this morning to testify on the important topic of 
access to conservation programs by the historically underserved 
farmers and ranchers.
    My name is Kim LaFleur and I, along with my husband, Jeff, 
own and operate Mayflower Cranberries, a 112 acre cranberry 
operation and agritourism business in Plympton, Massachusetts. 
I am the State Advisor and Program Director for the 
Massachusetts FFA Association and I am proudly serving as the 
Second Vice President for the National Association of 
Conservation Districts.
    Jeff and I are first-generation farmers who grow for Ocean 
Spray, our farmer-owned cooperative, consisting of more than 
700 cranberry growers. We are proud that Ocean Spray has 
committed to becoming the first fruit cooperative in North 
America to verify 100 percent of its crop as sustainably grown. 
To meet this goal, Ocean Spray is benchmarking our bogs to the 
Farm Sustainability Assessment, a tool developed by the 
Sustainable Agriculture Initiative Platform.
    Criteria we seek to meet include protecting and improving 
the natural environment, protecting and improving the social 
and economic conditions of farmers, as well as the efficient 
production of safe, high-quality products. The importance of 
this commitment belies a 2019 harvest that saw the second-
largest drop in production in over 50 years, largely due to 
atypical and unpredictable weather and climate.
    As first-generation farmers, Jeff and I have been able to 
take advantage of important Federal resources to improve 
conservation outcomes. While conservation practices and 
technologies are critical to preserving our wetlands and bogs, 
they are often expensive investments, especially for first-
generation farmers. This is where access to USDA programs is 
imperative.
    Our ability to implement conservation practices was as a 
result of the relationship we had with our local conservation 
district. Outreach activities conducted by the district 
resulted in a conservation plan for every cranberry operation 
in the region. We received the benefit of highly-specialized 
farm plan for our unique crop to protect water quality and 
enhance water conservation, and our farm plan provides a road 
map on which we use to make management decisions.
    At the heart of conservation programs is access. Producers 
need access to information, technology, financial and technical 
assistance.
    Massachusetts is the third most densely populated state in 
the nation. Farming here is becoming ever more difficult, as we 
compete with an increasing population that is competing for the 
same limited land resources for housing and recreation.
    Conservation technical assistance is also limited, but when 
coupled with underserved producers, it makes the delta to be 
able to serve this need even wider.
    Through my work with FFA members, I see firsthand a 
generation of young women who are wanting to have a career in 
production agriculture but lack the financial and technical 
resources to do so. In Massachusetts, 65 percent of our members 
are female, but yet we don't see that translate into the 
agricultural workforce. Direct outreach must occur to help 
bridge the gap from interested in agriculture to working in 
agriculture if we want to ensure that women play a greater 
role, moving forward. USDA can and should do more to reach the 
historically underserved populations within and outside the 
conservation space.
    One of the greatest barriers to access for all producers is 
when a producer's local USDA Service Center lacks adequate 
capacity to both process program applications and conduct 
needed outreach. This barrier is even greater for historically 
underserved producers who may not be familiar with the 
opportunities provided through USDA to help their operation. 
USDA must consider the extra outreach to these producers when 
conducting workload analysis to determine needed staffing.
    Congress must continue to provide the needed funding and 
oversight to NRCS so that NRCS can reach producers where they 
are, rather than hope that they enter a USDA Service Center.
    One of the answers to improved access to conservation 
programs may lie in front of us. With 3,000 conservation 
districts nationwide, this locally-led delivery system has been 
in place for more than 80 years. Districts have a rich history 
of working with NRCS and provide education and leadership 
opportunities. They work side by side with NRCS staff at the 
local level; however, there is an opportunity to enhance this 
relationship to provide increased access to programs to 
underserved producers.
    In a historically male-dominated industry, there are still 
changes that are needed to ensure access is equitable to all. 
However, through strong partnerships and outreach with 
underserved communities, the path towards a solution becomes 
clear. As a female producer, I don't want a seat at a special 
table. I want a seat at the same one as everyone else.
    Chair Spanberger, Ranking Member LaMalfa, and Members of 
the Subcommittee, thank you for the opportunity to testify 
before you today.
    [The prepared statement of Ms. LaFleur follows:]

    Prepared Statement of Kimberly J. LaFleur, Owner and Operator, 
                  Mayflower Cranberries, Plympton, MA
    Good morning, Chair Spanberger, Ranking Member LaMalfa, and Members 
of the Subcommittee. Thank you for inviting me to testify this morning 
on the important topic of USDA's conservation programs and the ability 
of historically underserved producers to access these programs. My name 
is Kim LaFleur, and I--along with my husband, Jeff--own and operate 
Mayflower Cranberries, a 112 acre cranberry farm and agritourism 
business in Plympton, Massachusetts. Jeff and I are first-generation 
farmers, and it is our hope that someday our two sons will decide to 
take over the family business that we have created. Although we have 
only farmed our bogs since 2009, they have been in production for more 
than 100 years and are our most critical asset. Their health and 
vitality determine ultimately how sustainable our operation will be.
    Both my personal and professional life have deep ties to 
agriculture and conservation. I am the State Advisor and Program 
Director for the Massachusetts FFA Association. FFA, formerly known as 
Future Farmers of America, is a career and leadership development youth 
organization for students studying agriculture at the high school 
level. I am also proudly serving as the Second Vice President for the 
National Association of Conservation Districts. This role has provided 
me with the unique opportunity to advocate for locally led conservation 
programs across the nation.
    Jeff and I are also proud to grow for Ocean Spray, an agricultural 
cooperative owned by more than 700 cranberry growers. Ocean Spray is 
the leading producer of cranberries in the United States with a wide 
variety of cranberry products. The farmer-owned cooperative model Ocean 
Spray employs is unique in that we as the growers are also the owners 
of the business. Thus, when we are working the land, harvesting 
cranberries, and marketing our product, we are doing so as part of a 
larger business that employs hundreds of farmers and workers across the 
country. As grower-owners, we remain committed to sustainably producing 
cranberries in order to protect our bogs and the lands around them.
    We are proud that Ocean Spray is committed to becoming the first 
fruit cooperative in North America to verify 100 percent of its crop as 
sustainably grown. To meet this goal, Ocean Spray is benchmarking our 
bogs to the Farm Sustainability Assessment, a tool for sustainable 
farming developed by the Sustainable Agriculture Initiative Platform. 
Criteria we as growers and as a cooperative seek to meet include 
protecting and improving the natural environment, protecting and 
improving the social and economic conditions of farmers, as well as the 
efficient production of safe, high quality products. The implementation 
of conservation programs on the farm is directly tied to our ability to 
be certified as sustainable. The sustainability certification will 
allow us to better market our product to consumers.
    As first-generation farmers, Jeff and I have been able to take 
advantage of important Federal resources to help us make our operation 
both financially and environmentally sustainable. Cranberry growers--
like many other producers across the country--are good stewards of the 
land, and we want to implement farming practices and technologies that 
not only save our operation money but also improve conservation 
outcomes. It is also important to remember that cranberry farmers grow 
the berries in wetlands; thus, we depend on healthy wetlands that could 
sustain another hundred years of cranberry production. While 
conservation practices and technologies are critical to preserving 
wetlands and bogs, they are often expensive investments for farmers, 
especially first-generation farmers. Therefore, it is critical for 
Congress to continue to fully fund USDA conservation programs, such as 
Environmental Quality Incentives Program (EQIP) and the Conservation 
Innovation Grants. Investing in these grant and cost-share programs 
will ensure beginning and first-generation farmers will be able to 
continue to protect the lands we depend on.
    As mentioned, our operation has a total of 112 acres, of which 
23\1/2\ acres are cranberry bogs. The remaining acreage consists of 
reservoirs, wetlands, and upland buffer areas that all support the bogs 
and our production. We believe in protecting the land and use 
technology to do so. Through the EQIP program we have implemented 
practices to improve irrigation efficiency, water quality and 
pollinator habitat. Our farm conservation plan provides a road map on 
which we use to make management decisions. We use precision irrigation 
technology to report soil moisture data, plant stress levels and 
weather information to the Internet in real-time. The monitoring 
stations, which run on solar power, send in-field data to the cloud. 
From that point, Jeff and I can access the data from our phones or 
computers and receive text alerts and notifications when field 
conditions dramatically change. This smart, precision agriculture 
technology not only saves us time in measuring soil moisture by hand, 
but it also allows us to reduce our water usage. Since we started 
reducing our water usage, we also noticed that the quality of the 
berries has improved. This allows us to grow higher quality fruit while 
also reducing our environmental footprint.
    Another way we conserve water and reduce input costs is through the 
use of automated sprinkler systems. During early spring, and again in 
the fall near harvest, we protect our berries from the frost by 
applying water through our sprinkler irrigation system. These systems 
have sensors in the vines that monitor temperatures, and we can control 
the system using the Internet. We are not the only cranberry growers 
who have implemented this conservation practice, though. In fact, as 
part of a U.S. Department of Agriculture (USDA) Conservation Innovation 
Grant, the Cape Cod Cranberry Growers Association worked with growers 
like Jeff and I to implement irrigation technology. We save money and 
use less water by starting our pumps closer to the actual frost 
temperature. If not for the Conservation Innovation Grant from the 
USDA, we may not have been able to install this type of system. 
Therefore, it is important for Congress to continue to fully fund the 
grants and monitor their implementation by USDA over the life of the 
2018 Farm Bill to ensure these types of technologies can be implemented 
by other growers. Also, irrigation automation systems are approved as a 
cost-share practice in USDA's EQIP. This means that Massachusetts 
cranberry growers can receive EQIP funding to implement these water and 
cost-saving systems in their bogs.
    Our ability to incorporate these conservation practices was as a 
result of the relationship we had with our local conservation district. 
Recognizing an unmet need for conservation plans for our unique crop, a 
partnership was formed between the cranberry industry and state and 
Federal agencies. Growers such as ourselves received the benefit of 
highly specialized farm plans developed by conservation district staff 
to protect water quality and enhance water conservation. The outreach 
activities conducted by the district resulted in a conservation plan 
for every cranberry operation in the region.
    At the heart of all these conservation practices is access. 
Producers need access to information, technology, financial and 
technical assistance. Massachusetts is the third most densely populated 
state in the nation. Farming here is becoming ever more difficult with 
an increasing population that may or may not be connected to 
agriculture and are competing for the same land resources for housing 
and recreation. Opportunities for new farmers in general, and 
especially the historically underserved, are limited. Conservation 
technical assistance is limited to begin with, but when coupled with 
underserved producers, it makes the delta to be able to serve this need 
even wider.
    Through my work with FFA members, I see firsthand that there is a 
generation of young women who are wanting to have a career in 
production agriculture but lack the financial and technical resources 
to do so. In Massachusetts 65% of our members are young women, yet we 
do not see that translate into the agriculture workforce. Direct 
outreach must occur to help them bridge the gap from interested in 
agriculture to working in agriculture if we want to ensure that women 
play a greater role moving forward. Increasing opportunities for women 
in agriculture needs to be more than a few yearly conferences, webinars 
and email blasts. USDA can and should do more to reach the historically 
underserved populations within and outside the conservation space.
    One of the greatest barriers to access for all producers is when a 
producer's local USDA service center lacks adequate capacity to both 
process program applications and conduct needed outreach. This barrier 
is even greater for historically underserved producers who may not be 
familiar with the opportunities provided through USDA to help their 
operations. USDA must also consider the extra outreach to these 
producers when conducting workload analyses to determine needed 
staffing and Congress must continue to provide the needed funding and 
oversight so NRCS can reach these producers where they are, rather than 
hope they enter a U[SD]A Service Center.
    One of the answers to increased access to conservation programs 
lies in front of us. With 3,000 conservation districts nationwide, this 
locally led conservation delivery system has been in place for more 
than eighty years. Districts reach urban, rural and suburban 
communities. Conservation districts have a rich history of working with 
NRCS. They work side by side with NRCS staff at the local level. 
However, there is an opportunity to enhance this relationship to 
provide increased access to programs to historically underserved 
producers.
    Conservation districts also provide education and leadership 
opportunities for producers. I am the first woman to serve as an 
officer of the National Association of Conservation Districts. That is 
not a statistic that I typically mention. I want my time in this 
leadership role to be based on my merits, not on my gender. However, 
the fact that I am a female in a leadership position in a heavily male 
dominated industry is not lost on me. I owe it to those who came before 
me who did not have this opportunity to ensure our voice is always on 
the same playing field. Those who will come after me depend on it.
    In a historically male-dominated industry, there are still changes 
that are needed to ensure access is equitable to all. However, through 
strong partnerships and outreach with underserved communities, the path 
towards a solution becomes clear. As a female producer I don't want a 
seat at a special table. I want a seat at the same one as everyone 
else.
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee, thank you for the opportunity to testify on this 
important issue. I look forward to answering your questions.

    The Chair. Thank you very much.
    Mr. Robinson, you may begin when you are ready.

        STATEMENT OF QUINTON N. ROBINSON, ESQ., POLICY 
           ADVISOR, RURAL COALITION/COALICION RURAL, 
                        WASHINGTON, D.C.

    Mr. Robinson. Good morning, Chair Spanberger, Ranking 
Member LaMalfa, and Members of the Subcommittee on Conservation 
and Forestry.
    I serve as the Agriculture Policy Advisor for the Rural 
Coalition. We are a community-based organization and we 
advocate on behalf of limited resource and minority farmers and 
ranchers across the United States.
    Thousands of hardworking farm families share their economic 
victories with the Rural Coalition on a daily basis. These 
families also express their frustrations caused by programmatic 
hurdles that make it impossible to survive in today's 
increasing competitive markets and adapting technology on the 
farm.
    The Rural Coalition operates as a grassroots model and we 
listen closely to the farmers that we represent who are by and 
large multicultural farm families. And we, over the past 40 
years, have made great attempts to inform the Congress about 
new legislation and administrative improvements in USDA's 
programs that make life on the farm easier for limited resource 
producers.
    I will just say very clearly that the farmers and ranchers 
that we represent are hardworking farm families. They are law-
abiding citizens and we believe that they play a very critical 
role in helping our nation maintain and expand its role as the 
world's paramount leader in the production and marketing of an 
abundant, safe, and affordable supply of food and fiber.
    I want to, in my comments, highlight some of the 
improvements in the 2018 Farm Bill that I believe will go a 
very long way in improving the conservation needs and the 
economic and social well-being of the farmers that we 
represent.
    These improvements in the law make conservation practices 
more attainable for small and limited resource farmers and 
ranchers, but if the farmers that we represent, whether it is 
say a rancher from Oklahoma or a row crop producer from 
Arkansas, would really say to you today, ``Thank you for the 
opportunity to hear their voices, and once again to thank you 
for the efforts that you made in the 2018 Farm Bill to make 
conservation programs more attainable to limited resource 
farmers and producers.''
    Now a bit about the conservation challenges and the set-
aside funding in the farm bill and how that all works. Similar 
to all producers, minority farmers and ranchers face 
conservation challenges on their farm enterprises, whether it 
is cow-calf operation, organic vegetables, and more recently, 
industrial hemp. And the farm bill provides for five percent 
set aside for overall funding for NRCS, five percent set aside 
for new and beginning farmers, and five percent set aside for 
socially disadvantaged farmers, and most of the State 
Conservationists around the country who use these funds will 
tell you that they utilize all of their funds on an annual 
basis.
    But the farmers have a regulatory right, if it is a new and 
beginning farmer, a veteran farmer, or a minority farmer, to up 
to a 90 percent cost-share. And within this 90 percent cost-
share, a farmer that we represent, they will get a 50 percent 
advance payment up-front, they are responsible for the next 40 
percent, and then that 40 percent is reimbursed. And one 
recommendation that I would make clear here today is that in 
many cases some of the farmers that we represent will have 
difficulties coming up with the 40 percent, and one thing that 
we are working with NRCS is to, for the State Conservationist 
and the Secretary, to use their regulatory flexibility to waive 
that 40 percent in the appropriate circumstances so that the 
conservation practice is not eliminated because the farmer 
can't come up with the cost.
    And so with that, I will end my remarks and I look forward 
to answering any of the questions that the Committee may have. 
Thank you.
    [The prepared statement of Mr. Robinson follows:]

Prepared Statement of Quinton N. Robinson, Esq., Policy Advisor, Rural 
              Coalition/Coalicion Rural, Washington, D.C.
    Good morning, Chair Spanberger, Ranking Member LaMalfa, and Members 
of the House Agriculture Committee, Subcommittee on Conservation and 
Forestry.
    I am Quinton N. Robinson, Esq. and I serve as the Agriculture 
Policy Advisor for the Rural Coalition which is a network of community-
based organizations advocating on behalf of limited resource, and 
minority farmers and ranchers across the United States. Thousands of 
hard-working farm families share their economic victories with the 
Rural Coalition daily. These families also express their frustrations 
caused by programmatic hurdles that make it impossible to survive in 
today's increasing competitive markets and technology adaptation on the 
farm.
    The Rural Coalition operates on a grass roots model that listens 
closely to the farm program concerns of our multicultural farm families 
and make attempts to create new legislation or administrative 
improvements at the USDA and other relevant Federal agencies.
    For more than 40 years, the Rural Coalition has effectively worked 
with the U.S. House and the U.S. Senate on legislative proposals 
involving farm credit, civil rights and conservation which is the topic 
of today's hearing. The minority farmers and ranchers that we work with 
are hard working, law abiding citizens and play a critical role in the 
helping our nation maintain and expand its role of as the world's 
paramount leader in the production and marketing of an abundant, safe 
and affordable supply of food and fiber.
    I want to specifically highlight improvements in the 2018 Farm Bill 
that will go a long way in improving the economic and social well being 
of family farmers. These improvements in the law make conservation 
practices more attainable for small and limited resource farmers and 
ranchers. I want to thank you for your invitation to the Rural 
Coalition to be here today to share our thoughts about access to 
conservation programs for minority, limited resource and new and 
beginning farmers and ranchers.
Conservation Challenges and [Set-Aside] Funding Allocations
    Similar to all producers, minority farmers and ranchers face farm 
related conservation challenges in farm enterprises such as cow-calf 
operations, organic vegetables, and more recently industrial hemp 
production.
    The 2008 Farm bill initially addressed some of the funding related 
challenges by authorizing NRCS conservation funding [set-asides] for 
minority and new and beginning farmers and ranchers. For example, NRCS 
ensures that 5 (five) percent of the allocated conservation dollars are 
used to assist beginning farmers or ranchers; and 5 (five) percent of 
the allocated dollars are used to assist socially disadvantaged farmers 
and ranchers. These set a side allocations assist minority farmers and 
ranchers with a host of critical conservation practices that protect 
the soil, water and air quality. For example, minority and new and 
beginning farmers and ranchers utilize the NRCS Environmental Quality 
Incentive Program (EQIP) to remove invasive species such as the eastern 
red cedar. Hmong poultry producers use EQIP funding to conserve energy 
in poultry house operations.
    The current NRCS cost-share program for minority, and new and 
beginning farmers and ranchers is quite helpful in that the program 
allows for 90% cost-share on NRCS acceptable conservation practices. 
The program is structured in a manner that provides eligible farmers a 
50% up-front payment from NRCS, and a 40% reimbursable payment from 
NRCS once the eligible farmer has paid out of pocket 40% percent of the 
costs of the approved conservation practice. Although a minority or new 
and beginning farmer is responsible for only 10% of the costs of the 
conservation practice, the 40% reimbursable costs remains a burden for 
some farmers within this category. Our farmers recommend that USDA 
waives the 40% reimbursable costs in those circumstances where a farmer 
can show hardship.
2018 Farm Bill Improvements
Ensure Fair Access to USDA for Producers Farming on Heirs Property 
        (FSA, NRCS, NASS)
    Sections 12615, 5104 and 12607 of the 2018 Farm Bill Conference 
Report are intended to assure USDA affords fair access to its programs 
for farmers and ranchers who operate farms on ``heirs property.'' The 
final language ensures that more farmers--especially African-American 
farmers and farmers of color operating on land with undivided 
interests--can finally access critical USDA programs that enable them 
to protect the soil and water; and continue to operate viable farms 
that feed their communities.
    When landowners pass on without leaving a will or a succession plan 
to transfer ownership of the land or assigning an executor to divide 
the property among all living inheritors, ``Heirs Property'' is 
created, which can destroy wealth for the next generation. ``Heirs 
property'' then becomes intestate, and the laws of the state control to 
whom ownership is passed. Multiple descendants the become tenants in 
common, with each having a fraction of the undivided interest in the 
land. Land so held lacks a clear title, and therefore cannot be sold 
without court action such as a partition sale. Family members who may 
wish to still farm the land may be left unable to buy out other heirs.
    Currently, producers operating on undivided heirs property are also 
unable to produce a valid deed or lease necessary to secure a farm 
number with USDA. Without a farm number, these producers are ineligible 
for most USDA programs.
    The new farm bill language should be implemented promptly in 
consultation with the groups most familiar with the issues. It would 
expand access to critical Federal farm programs by helping more 
families resolve longstanding heirs property issues through a pilot 
relending program to clear land titles while protecting the rights of 
all heirs. It would also assure that the many farmers--especially 
African-American farmers and farmers of color operating on land with 
undivided interests--can now secure Farm Numbers and access USDA 
programs that enable them to protect the soil and water; continue to 
operate viable farms that feed their communities; and pass the farming 
vocation and farmland on to future generations.
    In order to participate in USDA programs, producers must 
demonstrate control of the land to secure a farm number and access to 
Federal farm, credit and conservation program benefits. Currently, 
producers operating on heirs property are unable to secure a farm 
number and therefore access to most USDA program, including commodity 
programs, microloans, EQIP, or NAP or other risk management and 
disaster programs.
    Some producers who utilize Commodity Programs authorized under 
title I have been allowed to access these programs using a process of 
self-certification of the farmer's authority to farm that land. Our 
constituents have informed us, however, that due to encumbrances 
related to heirs property, hundreds of producers unable to access the 
food and agriculture programs they need to achieve sustainability.
    The issue of Heirs Property has generated much attention with 
regard to housing and ineligibility for assistance from FEMA and flood 
insurance following natural disasters for those residing in homes held 
with undivided interests. A Uniform Partition of Heirs Property model 
statute was developed and has now been adopted in 12 states,\1\ and is 
pending in several more. Similar laws in other states protect the 
rights of heirs property interests.
---------------------------------------------------------------------------
    \1\ Editor's note: there is no corresponding footnote for the 
reference (1) in the statement as submitted by the witness.
---------------------------------------------------------------------------
    Rapid implementation of the new legislation is also of critical 
importance in areas that have recently experienced natural disasters, 
including in the U.S. Virgin Island and Puerto Rico where many 
producers lack clear title to their land. The statutory changes require 
the USDA Farm Service Agency and Natural Resources and Conservation 
Service to recognize these or other instruments to provide for a legal 
authority to make decisions on behalf of the interests in the property 
(or the heirs), including allowing farmers operating on heirs property 
to participate in critical USDA programs and services.
    Section 12615 requires the Secretary to accept certain alternate 
forms of documentation to enable operators farming on land lacking a 
clear legal title due to heirs property issues to receive farm numbers 
from USDA Farm Service Agency (FSA) and thereby qualify to participate 
in USDA farm, credit and conservation programs. The statute requires 
that USDA, in states that have in force a Uniform Partition of Heirs 
Property Statute, provide a farm number and program eligibility to farm 
owners and operators farming on land that has an assigned 
administrative authority representing more than 50% of the interests in 
the property; and to identify similar alternate forms of documentation 
as evidence of control of the land for the purposes of participating in 
FSA and NRCS for farmers and ranchers.
Emergency Loans: Modernizations and Enhancements to Farmer Eligibility
    The new language will allow emergency loans to farmers even if a 
farmer has been previously granted debt write down. Prior to the 
passage of the 2018 Farm Bill, a farmer cannot receive a USDA 
``Emergency Loan'' if at any time after 1996 the farmer participated in 
a USDA Farm Service Agency primary loan servicing agreement that 
included debt write down or debt forgiveness.
    The frequent implementation of the debt ``write-down'' rule has an 
undue negative impact on socially disadvantaged in dire need of 
emergency loan. The 2018 natural disasters in North Carolina and 
California demanded modernization and enhancements in emergency loan 
programs. Indeed, farmers encounter multiple disasters that coincide 
with crop losses caused by environmental degradation, or low farm gate 
income caused by a global trade disruption.
    The Senate amendment amends section 373(b)(2)(B) to exempt write-
downs and restructurings under section 353 from what is considered 
``debt forgiveness'' for the purposes of applying the debt forgiveness 
loan eligibility limitations. (Section 5306). The House bill contained 
no comparable provision. The Conference substitute adopts the Senate 
provision. (Section 5307).
    We have recommended that the Secretary take a dual approach in 
order to speedily implement emergency loan eligibility. First, the 
Secretary should immediately issue a proposed rule to amend 7 CFR 
764.352(b) which governs emergency loan eligibility requirements. 
Secondly, we have recommended that the FSA hand book identified as 3 
FLP (Rev. 2) be amended at Page 10.1 to 10.2 to inform field staff and 
farmers and ranchers that a previous direct or guarantee loan write 
down is no longer a bar that prohibits a future application for an 
emergency loan. The Secretary should further make clear that emergency 
loan funds can be used to pay off or replace automobiles or higher 
interest credit cards that were frequently used prior to the disaster 
designation to finance farm operations. So long as otherwise 
permissible, the Secretary should further remove prohibitions for 
direct emergency loans in scenarios where farm loan borrowers have 
graduated from direct farm loan program with a past history of a 
guaranteed loan loss claim paid by FSA to a guaranteed lender.
    These farm bill improvements are related to effective participation 
in NRCS conservation programs and their speedy implementation will make 
minority participation in conservation programs much more effective.
    Thank you. I look forward to any questions from the Committee.

          The Rural Coalition/Coalicion Rural is an alliance of 
        farmers, farmworkers, indigenous, migrant and working people 
        from the United States, Mexico, and beyond working together 
        since 1978 with the shared values of unity, hope, people, and 
        the land. Rural
          Coalition/Coalicion Rural members share the belief that rural 
        communities everywhere can have a better future and that 
        community-based organizations who have long served the needs of 
        rural communities and people have a fundamental role in 
        building that future. Investments in their work will provide 
        important returns to our economy, our environment, and our 
        society.

    The Chair. Thank you very much, Mr. Robinson.
    Mr. Sanchez, please begin when you are ready.

   STATEMENT OF LTC ANDREW J. SANCHEZ, (RET.), USAF; FARMER/
                   RANCHER, SIERRA COUNTY, NM

    Mr. Sanchez. Thank you, Chair Spanberger, Ranking Member 
LaMalfa, Members of the Subcommittee on Conservation and 
Forestry for this opportunity to testify on opportunities and 
benefits available to military veterans in agriculture.
    I am the fifth generation to operate my cattle ranch in 
Sierra County in rural southern New Mexico, and this land was 
originally homesteaded in the territory of New Mexico in the 
late 1800s. My family has been running cattle there ever since, 
and I am currently in the process of purchasing the land from 
my father, Adam Sanchez.
    When I was young I wanted a life of adventure and a chance 
to fly and saw minimal opportunity in Truth or Consequences or 
Alamogordo where I graduated from high school. My parents 
recognized they couldn't change my mind, and I joined the Navy 
at 17. I served as an active-duty Naval flight officer for 9 
years and my service took me around the globe. All this led me 
back to the place where I have always considered home, and that 
is rural New Mexico.
    Now I operate the farm where I was raised and I see the 
same desire to escape in my children, and like my parents, I 
pray that I can instill just a bit of that calling that will 
bring them back to the land where their family legacy thrives.
    As a young man my sole ambition was to find a way to leave 
the ranch and find success in the larger world. Now I am faced 
with the same decisions that my father had to make, which is to 
how do I raise my family without losing this legacy.
    My grandfather was the last generation to successfully live 
on the ranch. My dad had to work close enough to commute to the 
ranch on weekends and holidays and I would spend summers living 
with my grandparents at the ranch until they passed. I became 
the chief operator of my ranch in 2011, and I am the sole 
provider for my wife and two children, at that time, and now 
three, and the farm income is not enough to support my family. 
As is the case with many Americans, I was forced to find off-
the-farm work, and in my case I joined the New Mexico Air 
National Guard.
    Returning to the farm full time, I faced the same obstacles 
that many beginning farmers confront. The ranch was somewhat 
neglected and I had to rebuild it. I first applied for EQIP as 
a beginning farmer and rancher when I needed a new well which 
stopped pumping in the late 1980s. I was awarded this grant, 
and upon finishing that project I knew that it wouldn't be 
enough to fully revive the ranch. I applied again in 2014 for a 
second grant to run additional pipeline and another drinker and 
additional storage, which was critically needed to ensure 
greater forage coverage and keep the cattle from overgrazing 
certain areas.
    My application was denied for 2 years due to the amount of 
points on the EQIP request. This was despite the USDA NRCS 
helping me compile more projects in the proposal and increasing 
the point value, and it wasn't until I applied using my veteran 
status that I was awarded the grant.
    My status as a military veteran afforded me the benefit of 
competing with fewer applicants for this EQIP and it also 
awarded me the supplementary payout to put in the additional 
storage. Most importantly, it allowed me to complete this 
additional $38,000 in projects without putting my family's 
livelihood at risk.
    However, due to the timing restrictions in the definition 
under the 2018 Farm Bill, next year I will no longer be 
eligible for USDA veteran benefits, as I will have been out of 
the Navy for 10 years.
    The USDA Veteran Program modified in the 2018 Farm Bill had 
a direct positive impact on farmer veterans. I elaborate on 
them in my written testimony. However, the change in the 
definition, veteran farmer/rancher, prevents a wide swath of 
farmer veterans from profiting from these benefits. The new 
statute defines a farmer/rancher as one who served in the Armed 
Forces, has not operated a farm or ranch, or has operated a 
farm or ranch for not more than 10 years, and who first 
obtained status as a veteran during the most recent 10 year 
period. The data on veteran farmers does not support such a 
change, as a large number who enter agriculture more than 10 
years after having left the military. Most of them are still 
quite young. As a result of this language, a large number of 
the targeted audience will not have access to these benefits.
    I am a sailor, I am an airman, I am a farmer. I fought for 
our nation's freedom and I continue to fight to feed my nation 
and preserve the way of life that is slowly dying. The USDA 
Veteran Preference Programs are essential in keeping rural 
America alive, for our veterans, like me, come from small towns 
and return to these small towns after service.
    In closing, I would like to recommend the following: 
continued support of USDA, VA's, and DOD's effort to educate 
and encourage veteran opportunities in agribusiness, continue 
to fund USDA programs addressing veterans, especially the 
conservation programs, consider modifying the definition of 
veteran farmer/rancher to remove: ``who first obtained status 
as a veteran during the most recent 10 year'' period.
    Thank you.
    [The prepared statement of LTC Sanchez follows:]

   Prepared Statement of LTC Andrew J. Sanchez, (Ret.), USAF; Farmer/
                       Rancher, Sierra County, NM
Executive Summary
    Personal Information:

  <bullet> Current majority owner and operator of my family's ranch in 
        Sierra County, New Mexico.

  <bullet> Ranches 2,000 acres of private and BLM land with 60 head of 
        cattle.

  <bullet> Previously served as active duty officer for 9 years in U.S. 
        Navy.

  <bullet> Currently serve as the Deputy Group Commander of the 150th 
        Operations Group.

  <bullet> Utilized EQIP benefits available through USDA, NRCS.

  <bullet> Member, Farmer Veteran Coalition.

    Recommendations:

  1.  Continue to support the USDA's, VA's, and DOD's efforts to 
            educate and encourage veterans on the opportunities in 
            Agribusiness.

  2.  Continue to fund USDA's programs addressing veterans, especially 
            the conservation programs under title II.

  3.  Consider modifying the definition of ``veteran farmer or 
            rancher'' to remove the ``who first obtained status as a 
            veteran during the most recent 10 year'' period 
            restriction.
Testimony
    Thank you, Members of the Subcommittee on Conservation and Forestry 
for the opportunity to testify on the opportunities and benefits 
available to military veterans in agriculture.
    I am the fifth generation to operate a cattle ranch in Sierra 
County in southern rural New Mexico. This land was originally 
homesteaded in the territory of New Mexico in the late 1800s. My family 
has been running cattle there ever since, and I am currently in the 
process of purchasing the land from my father, Adam Sanchez. However, 
when I was young and wanted a life of adventure and a chance to fly, I 
saw minimal opportunity in Truth or Consequences or Alamogordo, where I 
graduated high school. My parents recognized they could not change my 
mind and agreed to let me join the U.S. Navy at age 17.
    I served as an active duty Naval Flight Officer for 9 years. My 
service took me around the globe on multiple deployments, where I was 
exposed to many cultures and the diverse cross-section of the world. I 
enjoyed fellowship with local community members in huts in Asia Pacific 
and with dignitaries at fancy receptions in Poti, Georgia. I became 
close with my fellow Americans, whom I only met due to my service. All 
this led me back to the place that I've always considered home, rural 
New Mexico.
    Now that I operate the farm where I was raised, I see the same 
desire to escape in my children, and like my parents, I pray that I can 
instill just a bit of that calling that will bring them back to the 
land where their family legacy thrives. As a young man, my sole 
ambition was to find a way to leave the farm and find success in the 
larger world. Now I am faced with the same decisions that my father had 
to make. How do I raise my family without losing this legacy?
    My grandfather was the last generation that successfully made a 
living on the ranch. My dad had a 25 year Civil Service career on White 
Sands Missile Range and Holloman Air Force Base and worked close enough 
to commute to the ranch on weekends and holidays. I would spend summers 
living with my grandparents at the ranch until they passed. I then 
lived there with my great aunt and worked for what little profit the 
cows would bring each year. Sometimes, it was just enough to cover the 
bills and taxes. I became the chief operator of the ranch in 2011. I 
was the sole provider for my wife and two kids, and the farm income was 
not enough to support our family. As is the case with many American 
farmers, I was forced to find off-farm income. In my case, I joined the 
New Mexico Air National Guard.
    When I returned to the farm full-time, I faced the same obstacles 
many beginning farmers confront. The ranch had been somewhat neglected, 
and I had to rebuild it. It was at this time that I first applied for 
the NRCS Environmental Quality Incentives Program (EQIP) as a Beginning 
Farmer/Rancher. I needed a new well, which had pumped its last ounce of 
water when my grandparents ran the ranch in the 1980s. I was awarded 
this grant, but upon completion of the project, I realized it fell far 
short of what would be required to revive the ranch. In 2014, I applied 
for a second grant to run a pipeline; add another drinker and 
additional storage that was critically needed to ensure a greater 
forage cover; and keep the cattle from overgrazing the areas so close 
to the water. My application was denied for 2 years due to the low 
amount of points on my request. This was despite my USDA agent helping 
me to compile more projects to my proposal, thus increasing my points. 
However, in my district, the competition is just too fierce, and not 
until I used my Veteran status, was I awarded the grant.
    My status as a military veteran has afforded me the benefit of 
competing with fewer applicants for the EQIP. It also awarded me a 
supplementary payout to put in the additional water storage and 
drinker. This project allowed me to retain the 60 head, and I have also 
seen an increase in elk, deer, and other native wildlife. Most 
importantly, this allowed me to complete the additional $38,000 project 
without putting my family's livelihood at risk. However, due to the 
timing restrictions on how a veteran farmer or rancher is defined in 
the 2018 Farm Bill, next year I will no longer be eligible for USDA 
veteran benefits as I will have been out of the Navy for 10 years.
    I would be remiss if I did not mention Farmer Veteran Coalition's 
role in this process. I attended their annual conference in 2018 and 
their founder explained the veteran provision in the 2014 Farm Bill 
then directed me to the USDA-NRCS table to learn how to apply. It is 
not just veterans like me who do not know of the veteran preference 
priorities, but also many USDA employees are not aware of them. In the 
2018 Farm Bill, there has been more funding appropriated to outreach 
and raising awareness which should increase knowledge of these 
programs.
    The USDA veterans programs modified in the 2018 Farm Bill have a 
direct positive impact on farmer veterans. Veterans are given 
preferences under certain programs, including the Environmental Quality 
Incentives Program, the Conservation Reserve Program Transition 
Incentives Program, and the Regional Conservation Partnership Program. 
The 2018 Farm Bill added preference for veterans receiving financial 
and technical conservation assistance for pilot programs. Veteran 
farmers and ranchers were also included as part of a new definition of 
an underserved producer, which allows them additional aid in the 
Federal Crop Insurance Program. Finally, it extends benefits to 
veterans for down payment loans, reduced interest rates on guaranteed 
loans, disaster assistance coverage, and increased educational focus 
from the Food Safety Outreach Program and the Federal Crop Insurance 
Education Program. The bill expanded advocacy and outreach to veterans 
through the Office of Partnerships and Public Engagement and the 
Military Veterans Outreach Liaison Office. It further requires 
additional data collection and a dedicated USDA website with 
information for veterans about USDA programs and support which will 
certainly raise awareness of these veteran benefits.
    However, as I mentioned above, amending the definition of the term 
``veteran farmer or rancher'' prevents a wide swath of farmer veterans 
from profiting from these benefits. The statute defines a farmer or 
rancher as one who has served in the Armed Forces (U.S. Army, Navy, 
Marine Corps, Air Force, Coast Guard, and the reserves) and ``has not 
operated a farm or ranch; or . . . has operated a farm or ranch for not 
more than 10 years'' or who first obtained status as a veteran ``during 
the most recent 10 year period.'' The data on veteran farmers does not 
support such a change as large numbers enter the agriculture sector 
more than 10 years after they have left the military, most of whom are 
still quite young. As a result of this language, a large number of the 
targeted audience will not have access to these benefits.
    I am now exploring rural business loans through the USDA. Since I 
have returned to New Mexico, the National Guard armory in Sierra County 
was dismantled because the population is too small to support the 
Guard. Several stockyards have closed, and it is more and more 
challenging to make a living in my region. I, with the help from my 
local New Mexico Veteran Business Outreach Center (VBOC), am trying to 
turn my small cow/calf operation into a profitable direct-to-consumer 
business, but it is challenging to say the least.
    Like the military, neighbors in rural America depend on each other, 
and we are in this fight together. This includes: Maj Zamora, a 
Maintenance Officer in the National Guard who runs his family hay farm 
in Tome; MSgt Justice, with whom I deployed in OEF and runs his family 
farm with his father in Los Lunas; and Mike Carr, an Vietnam-era Army 
Veteran and fellow Farmer Veteran Coalition member, who works an all-
veteran cooperative farm near Taos. We are all trying to preserve this 
Legacy of service, not only on the battlefields, but in our rural 
American heartland. I am a Sailor, an Airman, and a Farmer. I fought 
for freedom, and I continue to fight for a way of life that is slowly 
dying. USDA's Veteran preference programs are essential in keeping 
rural America alive as many of our veterans, like me, come from small 
towns and return to these towns after their service.
    In closing, based on my experience as a farmer veteran, I would 
recommend the following for your consideration:

  1.  Continue to support the USDA's, VA's, and DOD's efforts to 
            educate and encourage veterans on the opportunities in 
            Agribusiness.

  2.  Continue to fund USDA's programs addressing veterans, especially 
            the conservation programs under Title II.

  3.  Consider modifying the definition of ``veteran farmer or 
            rancher'' to remove the ``who first obtained status as a 
            veteran during the most recent 10 year'' period 
            restriction.

    The Chair. Thank you very much for your testimony.
    Members will now be recognized for questioning in order of 
seniority for Members who were here at the start of the 
hearing, and after that we will recognize Members in order of 
their arrival. And I first recognize myself for 5 minutes.
    Mr. Sanchez, I have a quick follow-up question for you. 
When you were talking about the data regarding veterans who are 
not able to access the programs because their veteran status, 
that 10 year timeframe, expires. In your experience and from 
what you have seen, is that for veteran farmers who come into 
generational family farms but may not take over ownership? What 
are some of the reasons why that 10 year period, from what you 
have seen, will run out?
    Mr. Sanchez. Yes, ma'am. From what I have seen during the 
TAP (Transition Assistance Program) and the exit out of the 
military, there is a big education process on going into 
agriculture. A lot of people find it on their own, I guess. For 
me it was just what I grew up doing. I didn't really decide I 
was going to go back there and it took me--so I got out in 2009 
and it took me 2 years to really find my way back to actually 
doing it. And so that 10 year gap, there is a lot of different 
reasons that they don't return immediately, but falling under 
the minority and underserved, I am Hispanic for a lifetime, 
African-American for a lifetime, and when I hang up that 
uniform I am a veteran for a lifetime. I don't know why we have 
a 10 year ending date on that status.
    The Chair. And you mentioned that you were initially denied 
for 2 years until you realized that there was the veteran 
aspect. Was it prior to that you did not realize that that was 
an opportunity for you to apply under the veteran program?
    Mr. Sanchez. Yes, ma'am. I applied as a beginning farmer 
rancher for the first one, but I didn't realize they had 
veteran specific set aside until I talked to the Farmer Veteran 
Coalition and they educated me by saying, ``Hey, you need to 
apply for as a veteran,'' and then that was also one of the 
underserved categories that I could apply to separately.
    The Chair. Thank you very much. I think that speaks to some 
of the points that Ms. LaFleur was making regarding education 
about these issues.
    My next question is for Mr. White. Thank you very much for 
being with us. Some of your operations are based in Louisa 
County, within the district I am proud to represent, so I am 
particularly appreciative that you are here. Appreciative you 
are all here, but it is good to see a fellow Virginian.
    Beginning farmers play a key role in agriculture and 
conservation, and in Virginia's 7th Congressional District \1/
3\ of our producers are new and beginning farmers. According to 
the Census of Agriculture, the number of new and beginning 
farmers in the U.S. increased by 82 percent from 2012 to 2017, 
and this is an encouraging trend. But the Census also revealed 
that the number of farmers who reported operating for a period 
of 6 to 10 years declined by roughly seven percent, suggesting 
that if entry into agriculture is challenging, actually staying 
in agriculture is even more challenging.
    Can you speak from your experiences to the role of 
conservation programs in helping farms to remain financially 
viable as they attempt to thrive? And what else can we be doing 
to ensure that these programs are helping farmers stay 
profitable and resilient?
    Mr. White. Yes, ma'am. The first part of that has a lot to 
do with timing of what was happening in the farm economy: 2012, 
2013, 2014, as people were getting in, were going into a peak 
of commodity prices. Beef cattle prices were going up and then 
everything kind of tanked a little bit here, which we are 
dealing with the downside now. With cattle and crop and all, 
you have to look at the long-term and see these programs. They 
are working, they are helping, but there is going to be certain 
classes of young farmers that might not succeed because of 
outside market forces, and you don't want to write off the 
program as not working because this class of young farmers 
coming in had a hard time. You know, the outside economy was a 
large contributing factor to what got them.
    The Chair. Thank you for the context on that. And so, 
generally speaking, as you perceive it, the elements of the 
conservation programs that you yourself are engaged with in 
terms of fencing and helping nearby ranchers in central 
Virginia, do you see those as a path for which farmers and 
ranchers can pursue to ensure that they are creating greater 
sustainability for their farms?
    Mr. White. Most definitely. What you do on the farm, the 
improvements you make, the conservation for sustainability, 
that is all like your savings account on the farm. You build up 
your soil, you build up your infrastructure, and when the 
market treats you good you are making money and you keep going. 
If you are always taking away from the farm, you are depleting 
and it doesn't matter whether the market is going up or down, 
you are going down. But, the savings you put into the farm, the 
infrastructure you build, all that sustainability that you 
build up is going to be what helps the farm in the long-term. 
Don't let the snapshot take away from the programs in general, 
because the programs are good.
    The Chair. Thank you very much.
    Mr. Chairman, would you like to make a statement? Thank 
you.
    Thank you very much. I now recognize Ranking Member 
LaMalfa, for 5 minutes.
    Mr. LaMalfa. Thank you again. I appreciate the panel and, 
Irvin, hey, I am just a dirt farmer who has got a tie now, so 
don't worry about how this works. Okay? So, just plow through. 
I appreciate you all being here.
    Ms. LaFleur, first of all, I am fascinated by what you do 
way up there in the Northeast. I grow a crop in a flooded field 
situation myself, but it is not anything like what you do, rice 
versus cranberries. I have a couple questions, but I want to 
ask you one more on a production basis. How deep do you keep 
those bogs with water, and I am sure it varies as you harvest 
and such.
    Ms. LaFleur. Well, contrary to popular belief, the 
cranberries actually grow dry. They actually don't like to be 
too wet, so unless we are actively protecting for frost in 
the--or deep freeze in the winter or harvest, the bogs remain 
dry.
    Mr. LaMalfa. And you keep the vines year after year? It is 
not an annual in any way, right?
    Ms. LaFleur. Yes, sir. Some of the vines on our property 
have been growing since the 1880s.
    Mr. LaMalfa. Wow. Amazing. Okay. Well, I guess that would 
define the word sustainable at least in one way. That is what I 
wanted to ask you about a little bit are the practices that are 
required to be certified as sustainable. Is it a mandated 
thing? Is it something that the producers and their association 
come up with, or is there a certifying entity outside that says 
you meet some standard for what sustainability would be? I know 
you said 100 percent across the whole industry, which is pretty 
remarkable.
    Ms. LaFleur. We are using the Farm Sustainability 
Assessment Tool, and certified by an outside entity, which is 
looking at the conservation practices that growers implement. 
Our typical practices involve water quality, water 
conservation, and pollinator habitat. And those can be anything 
from the construction of tail water recovery areas, bypass 
canals, water control structures, sanding practices, et cetera.
    The practices for the sustainability certification are 
actually up to the individual producer in which ones they 
implement. However, their ranking, and this tool uses a gold, 
silver, bronze ranking system, how they rank depends on the 
number of practices that they implement.
    Mr. LaMalfa. What is the value of that score for the 
industry or the individual producer as far as marketability or 
favor amongst regulators. How do you quantify that?
    Ms. LaFleur. Well, it is really two-fold. It is the 
environmental aspect of sustainability, doing the right thing 
taking care of our water resources. We farm in a wetland. We 
use water resources pretty intensively. Making sure that our 
water resources and we are using that water smartly is 
important.
    The economic side of it is just as important as it enhances 
our ability to market our crop. The American public is looking 
more and more into the business practices of cooperatives like 
Ocean Spray, or really any producer, and looking at their 
business model and their plans and how their farmers deliver 
the product to them. Ultimately, the marketability and how we 
are able to brand our products with our ultimate goal of being 
100 percent sustainably grown. Again, it is a lofty goal but 
one that, we as grower-owners, members of Ocean Spray, have 
committed to.
    Mr. LaMalfa. Well, talk a little bit about the outreach 
aspect. I would like to hear from a couple of you on that if we 
have the time.
    Are we doing two rounds? Okay. We will have time.
    What does the outreach look like? Now, are you talking to 
people that are not in farming at all and you want to get them 
involved, or is the outreach more about people that are in 
agriculture, maybe their family was, and maybe they are not 
aware of some of the conservation? What are the different tiers 
of outreach in effect? How are you finding people to outreach 
to, et cetera?
    Ms. LaFleur. Well, for us, at our conservation district 
level, our outreach involves both producers and non-producers. 
As I mentioned, we live in a pretty densely-populated state. We 
farm literally within view of our neighbors. They see and have 
an opinion about everything that we do. So, conservation, at 
the heart, is about doing the right thing, but at the same time 
it is also making sure that that right thing puts us in a 
position where we can avoid regulators coming in and telling us 
how we must do things, because we have taken those advance 
steps to make sure that we are farming in a smart way, again, 
using water resources smartly, minimizing inputs again saves 
time, saves labor, it all comes down to the bottom line.
    Outreach efforts are, we use social media a lot. We do 
trade association meetings as another great outreach effort in 
order to reach the current producers. But to reach the next 
generation, we have a lot of people who are interested in 
agriculture, but they are afraid or don't know where to take 
that next step, so if we are going to encourage more people to 
enter agriculture, however, at whatever scale, we need to reach 
them where they are. And for us that is a multi-faceted social 
media trade association meetings and direct mailings.
    Mr. LaMalfa. Okay. I am over time here, so thank you.
    And, Mr. Robinson, I will come to you with that question in 
the next round, too. So you can ruminate on that.
    Thank you, Madam Chair.
    The Chair. Thank you.
    I now recognize the gentlewoman from Maine, for 5 minutes.
    Ms. Pingree. Thank you, Madam Chair, and thank you for 
holding this hearing. And to all of you, thanks so much for 
your testimony and telling us a little more about some of the 
challenges that the farmers you are associated with face.
    I want to have a chance in my next question to talk a 
little bit about staffing levels in outreach because I think 
that is critically important at USDA right now, but since I 
know it will come up a lot, I want to also discuss climate 
change. And I spent a lot of time working on how farmers can 
participate in some of the positive aspects of mitigating 
climate change, but also many of the challenges that people are 
facing with erratic weather.
    I, too, am a small farmer. I am from the State of Maine, so 
welcome to our fellow New Englander. And we are challenged in a 
variety of ways. Luckily we are a fairly high rainfall state, 
but we have been having excess rainfall in the spring and then 
droughts in the summer and that presents a challenge, 
particularly if the irrigation systems aren't working or we 
don't have the capacity to irrigate.
    But, I am just interested in hearing from all of you if 
there are ways that you know that agriculture has been affected 
by weather, other issues around climate change in your area. 
And, maybe, Ms. LaFleur, you could start out because you talked 
a little bit about the real challenges last year with the yield 
in cranberry growing. And I appreciate you are a steadfast 
cranberry grower in Massachusetts because we don't want you 
guys to have to go away.
    Ms. LaFleur. Thank you. The weather and climate change 
played a pretty significant impact on the crop of cranberries 
nationwide. Of course things are cyclical. Some growers had a 
great crop. Other growers had dramatic reductions. We are 
seeing, in particular, growing regions had a lot of issues with 
winter kill, and for that particular growing region they are 
not used to dealing with those extreme temperatures, so their 
management practices and how they would typically manage their 
bogs in the winter, if they held status quo, well, last winter 
was not status quo for them.
    Looking at different ways and how we can mitigate those 
issues, again, I mentioned before, we use water in times of 
drought. We have had years where there is not enough water to 
harvest for certain growers. We release our water to growers 
downstream from us that depend on our water to harvest their 
bogs. And so it is a coordinated effort. But the impacts of 
climate change is something that is not lost on producers. How 
to mitigate those impacts I suppose is still the big question.
    Ms. Pingree. Yes. Anyone else have experiences?
    Mr. Sanchez. Yes, ma'am, thank you very much. So, right. 
Using that EQIP, the first EQIP that I talked about in 2011 to 
re-dig that well. When my grandparents put that well in, they 
dug it by hand and used a windmill. It was a seasonal spring 
that would run about 3 months out of the year, and they dug it 
and it was only about 30 down. When I had to re-dig that well, 
I had to take it down to 270 to hit water, so it is a lot 
different. I don't know if it is the water usage, especially in 
New Mexico where it is a dry climate, that as population grows 
we are using more and more water so it is driving it more and 
more into the aquifers. But, yes, it is impacting agriculture 
big time.
    Mr. Robinson. Yes, ma'am. Thank you for your question.
    Particularly with blueberries in your state, we have had an 
opportunity to speak with some of the growers and they have 
informed us that as it warms earlier in the season it brings in 
a different type of more vicious pest, and if that particular 
grower has an existing conservation plan that already has a 
certain number of practices in it or cost to go back to NRCS 
and make changes to that plan can sometimes be problematic, 
obviously costly. But in this particular farm bill, there is a 
specific section in title II which allows or gives the State 
Conservationists more flexibility to make changes to existing 
plans so that the grower can have some flexibility of adapting 
to those climate change scenarios that you mentioned. It is 
just a matter of, once again, outreach and making sure that the 
farmer knows about the State Conservationist's ability to make 
waivers and be flexible with an existing plan.
    Ms. Pingree. Yes. Great, thank you.
    Mr. White, I will catch you on the next round because I am 
out of time. Thank you. If you have thoughts I will be happy to 
hear.
    Thank you, Madam Chair.
    The Chair. Thank you. I now recognize the gentleman from 
Georgia, for 5 minutes.
    Mr. Allen. Thank you, Madam Chair, and I want to thank the 
panel for the week before Christmas, and hopefully we get out 
of here this week, but thank you for taking your time to be 
here and for what you do for this country.
    Particularly, Lieutenant Colonel Sanchez, first I would 
like to thank you for your service. I am grateful that after 
serving your country abroad and continuing to serve at home, 
you are now able to enjoy the very land that you swore to 
protect. It is encouraging to see veterans like yourself 
farming and ranching, and our military is unparalleled in 
developing leaders, and our military leaders are mission-
oriented and capable of running organizations in an efficient 
and very thorough manner. Obviously, this is important in our 
ag industry. We need a new generation of leaders such as 
yourself that will join if we are to remain competitive in the 
global market.
    The first question is kind of broad, but if you could 
identify say four things that are obstacles that prevent most 
of our veterans like yourself who are interested in farming 
that keep you from going into agriculture after retiring. What 
would those four things be?
    Mr. Sanchez. Well, thank you. I can think of two that pop 
into my head right away. I think the big two is the information 
piece. I know, in my case, I grew up on the ranch, but back 
then I was a farmhand, that is the way my dad treated me.
    Mr. Allen. Yes.
    Mr. Sanchez. Taking ownership of the ranch and becoming the 
operator and turning that into a business in focus was 
something I didn't really know about. I knew how to work cattle 
and knew how to brand. I knew how to mend fences. And just 
really getting that information to the veterans as they come 
out, either in a TAP, in the transition assistance, or any of 
that stuff, agriculture isn't a big focus on getting out, even 
though we come from rural towns.
    In Sierra County where I came from, we had to close the 
National Guard Armory in Sierra County because there is just 
not enough opportunity, when I moved back, Wal-Mart came in, 
and it is not a thing on Wal-Mart, but there was a front page 
article that said Wal-Mart couldn't even find enough employees 
to open up a Wal-Mart. They had to bring people from outside 
the county. People are leaving those small towns, and to get 
them back there they are not aware of all the options as far as 
the EQIP and the NRCS and stuff.
    Mr. Allen. Yes.
    Mr. Sanchez. So getting that information is big.
    And then the second big one I would say is the availability 
and access to land. I am lucky enough that I come from a family 
that had that land. It was, like I said, homesteaded, and it 
has been passed down. But a lot of these young kids that come 
off the farm and stuff like that, when they are going back, 
that access to get their own place and build their own farm is 
very difficult.
    Mr. Allen. Well, I too was a farmhand, and of course my 
father was, I don't know, several generations of farmers, 
because frankly back before World War II our economy, 98 
percent of the workforce was in the agribusiness in some way. 
And now it is less than two percent.
    One of the things that I might add to this, and I have just 
a few seconds, is, obviously there has been a lot of talk about 
commodity prices. We had the Secretary of Agriculture here. 
When he first was appointed, Secretary Purdue, I asked him 
about commodity prices, because obviously farm income which was 
stable in 2012 but when I got here in 2014 it had dropped 50 
percent, farm income. And so in the next round we will talk 
about commodity prices and that fourth item that we didn't get 
to in this one.
    Thank you. And I yield back.
    The Chair. Thank you very much.
    I now recognize the gentleman from Arizona, for 5 minutes.
    Mr. O'Halleran. Thank you, Madam Chair.
    This is an important issue for my constituents, and thank 
you for being here today.
    According to the U.S. Department of Agriculture's 2017 
Census, Arizona's 1st Congressional District is home to nearly 
19,000 Native American producers. This is not a surprise given 
that the Tribes of Arizona have a rich history in agriculture.
    The changes made in the 2018 Farm Bill were in consultation 
with Tribes from across the country. They are only a single 
step in the right direction. More work needs to be done.
    As I learned from my Navajo constituents who live on many 
farms, chapter houses, in Arizona, access to the Environmental 
Quality Initiatives Program is a significant barrier to use of 
USDA conservation dollars for many Tribal producers. In fact, 
the government built them a beautiful irrigation system and the 
end result was they built it wrong. Eighty percent of the water 
still goes downstream instead of into the reservoir that they 
built, and we still haven't been able to get that corrected. 
And this is tens of millions of dollars that has been wasted. I 
ask that we work together as a Committee to revisit the 
eligibility requirements of the program.
    Additionally, youth are the future of agriculture in our 
nation, and their participation in Federal programs is critical 
to the future success and accessibility of these programs. In 
fact, there is a real crisis in making sure we keep our family 
farms. My family lost their farm, my grandfather, in the 
depression, and my father had worked the farm, and afterwards 
family members during the summer, dairy farmers. I had the 
pleasure of leaving urban America and going back to the farm 
and helping out while they went on vacation.
    Providing more resources to Natural Resources Conservation 
Service and other USDA programs to create more internship 
opportunities for Native youth with recruitment directly from 
Tribal communities will serve this purpose, and for the rest of 
our country. Natural Resources Conservation Services advertises 
summer intern programs nationally, but few opportunities are 
offered in Indian Country. I encourage USDA to consider 
creating more opportunities for Native youth in Indian Country.
    Further, many producers in my district are veterans. 
Arizona is home to more than 600,000 veterans, and we have a 
moral obligation to ensure the brave Americans who have fought 
and sacrificed for us to receive all the benefits they have 
earned.
    Lieutenant Colonel Sanchez, thank you for your service to 
our country. Your testimony highlights the fact that producers 
in the Southwest face unique challenges. This makes the 
assistance and resources provided by the USDA more important in 
ensuring more veterans can be successful in agriculture 
enterprises. My district borders New Mexico. When they finish 
their service and they can raise a family doing so.
    How do you make it easier on returning service members like 
yourself to begin operating an agriculture enterprise? We want 
you to succeed. We need for you to succeed. And, in 
relationship to the other question that was asked, how do we 
get on this early? Because we have you captured for a while 
towards the end of your career, and to me we are wasting an 
opportunity to get that type of information to you, unless you 
are getting it already, to be able to be successful on looking 
into a career that you have an interest in and have had in the 
past. What is the best way to educate service members in 
transitioning out of the service and into the opportunity of 
your choice?
    Mr. Sanchez. Yes, sir. Well, thank you. The 2018 Farm Bill 
that created the veteran liaison is a good step in that 
direction, but I know when I went to the Farmer Veteran 
Coalition when I was looking for the liaison in the New Mexico 
area, they didn't have one at the time. It is getting, filling 
those positions and making those liaisons aware of the 
programs. And that way they can intersect with the veterans at 
the right time, whether it be in the TAP class or getting that 
message into the service as far as the Military Benefits Office 
so that they know those benefits are available prior to leaving 
service. Because, like you said, that is when they are looking 
at what their next step out of service is going to be. And that 
is when we need to get the information to them.
    Mr. O'Halleran. Thank you. And I yield back, Madam Chair.
    The Chair. I now recognize the gentlewoman from Virgin 
Islands, for 5 minutes.
    Ms. Plaskett. Thank you, Madam Chair.
    Mr. Sanchez, I want to thank you for your testimony and the 
discussion of your family. You were just discussing some 
involvement of veterans liaison. Can you share how you would 
use that person if they were in fact there in your district and 
in other places?
    Mr. Sanchez. Yes, ma'am. Thank you.
    As far as being a veteran in the service and just coming 
from where I come from, I am more, I know myself as more of a 
face-to-face type person. You can put information on a website 
and I know some are going to gravitate and do website stuff, 
but just being who I am, I am face-to-face interaction. So, 
just being able to sit down with somebody and ask them the 
questions.
    Ms. Plaskett. In real time, right?
    Mr. Sanchez. In real time.
    Ms. Plaskett. Yes.
    Mr. Sanchez. To tell them my story and say, ``I grew up on 
a farm, I am looking at going back, what is available to help 
me.'' And having that liaison be wise in the programs and the 
different opportunities.
    Ms. Plaskett. Yes.
    Mr. Sanchez. That way they can hand that information off 
face-to-face would be a great, great asset.
    Ms. Plaskett. Thank you for that. I know that in many areas 
we often have new farmers. Even our older farmers are unaware 
of some of the programs that are available to them. I know in 
my district in the Virgin Islands, we have to share someone 
with Puerto Rico and oftentimes they don't have the budget to 
travel over. We had our only certified organic farmer here in 
another hearing who was talking about the cost of having to 
bring someone over, and even that cost-share is not enough.
    You highlighting how important it is to have someone and be 
able to answer the questions, have a relationship with someone 
that you believe is there supporting you, as opposed to just a 
website to go onto, is really critical.
    I am concerned about our veterans. Even telemedicine in so 
many instances is just not doing them and you all the service 
that you deserve to having people there to walk you through. I 
want to thank you for sharing that insight with us.
    Mr. Robinson, I wanted to talk with you about, a little bit 
about the farm bill heirs program, the heirs property 
provisions. We know that we are fortunate to have a network of 
about 19 historically black colleges and universities, HBCUs, 
which include Alcorn State University which houses USDA's 
Socially Disadvantaged Farmers and Ranchers Policy Research 
Center, which seems perfect for the discussion you were talking 
about.
    How might USDA benefit from their input as well as the 
feedback from producers on the ground? And what research gaps 
might they be able to address?
    Mr. Robinson. Thank you, Congresswoman, for your question. 
Alcorn is doing a--at the research, at the Minority Farmer 
Research Policy Center, they are doing a great job of getting 
into the field and collecting the data on conservation, credit, 
and other USDA programs.
    USDA is, has been a part, and I believe will continue to be 
a part of the data collecting process. And what we do at the 
Rural Coalition because we are grassroots is that we make sure 
that the Policy Center develops their research questions based 
on what is happening on the farm with the particular farm 
family. And so it is one thing to build a data set based on 
academia, but it is another thing to build a data set based on 
what is actually happening on the farm.
    And with conservation, one example would be, especially 
with heirs property, which became a part of the farm bill, and 
we appreciate the Committee's working with us on that, is that 
there needs to be more outreach on heirs property and the 
method in which a farmer gets the information about how taking 
the problem of heirs property and turning it into an economic 
benefit, whether it is----
    Ms. Plaskett. In talking about that economic benefit, you 
said, your testimony said that the heirs property provision is 
critically important to areas like Puerto Rico and my district, 
the Virgin Islands. Why is that?
    Mr. Robinson. Well, because in the Virgin Islands, what we 
found during the farm bill debate as we were drafting these 
provisions is that it had just gone through a natural disaster 
and as you were working with USDA to provide emergency natural 
resource programs, it was difficult to do that for many 
families simply because there was not a clear title to land. 
And so what we have done in this farm bill with this heirs 
property language is that we have allowed the USDA to allow the 
farmer to use alternative documentation to prove ownership of 
the land, whether that is through a lease or whether the farmer 
has paid the taxes on the land for a certain period of time. 
And we remember very clearly working with your office on making 
sure we got the language right, and so we appreciate that.
    Ms. Plaskett. Thank you so much for that information and 
thank you for your indulgence, Madam Chair.
    The Chair. Absolutely. With the first round of questions 
completed, and without objection, we will begin a second round 
of questions. Members will be recognized for 5 minutes in order 
of seniority, and I will first recognize the Ranking Member, 
Mr. LaMalfa, from California.
    Mr. LaMalfa. Thank you. I am going to defer to Mr. Allen 
here since he has an appointment. I will come back later.
    Thank you, ma'am.
    Mr. Allen. Thank you, Ranking Member.
    And to move on from the commodity pricing, and of course we 
hope to get to achieve the USMCA trade deal, which I am 
assuming in the livestock business that is going to be a plus 
for you, and so you might just comment on what you see right 
now and what you see in the future. And of course we have trade 
issues that we have that are in negotiations we have to 
finalize.
    Just how important are these trade agreements in increasing 
our ability to sell our goods at a fair price, not only here 
but around the world?
    Yes. Just go ahead, sir. We will just move down the line 
real quickly.
    Mr. White. Thank you very much. On the local farm level, 
trying to understand the national politics is challenging, but 
in what I read and what I understand it is supremely important 
to get these trade barriers knocked down to where we can get 
back into Japan, get into China and deal with our competitors 
around the world. I mean, U.S. beef is recognized around the 
world as the best there is.
    Mr. Allen. Right.
    Mr. White. We need to be able to sell it, and that will 
trickle back.
    Mr. Allen. You need to sell it, but it also matters how 
much you sell it for, right?
    Mr. White. Correct. And it all comes back to the smaller 
farm can benefit, as much or more than anybody from that.
    Mr. Allen. Right.
    Mr. White. Because, I mean, they are the ones that get hit 
the most when the prices drop. The bigger farm, you can 
weather, whether it is climate change, it is easier to weather 
if you are a bigger farm, or all the bumps are easier to 
weather the bigger you are.
    Mr. Allen. Yes.
    Mr. White. The smaller farms and the beginning farms, they 
all get hurt the most by the bumps.
    Mr. Allen. Yes.
    Mr. White. Whatever they are. The get hurt the most.
    Mr. Allen. Any other quick comments?
    Mr. Sanchez. Yes, sir. Thank you for the question. 
Especially being from New Mexico and so close to Mexico, I have 
seen the dropout out there in the beef prices, because there 
has been somewhat of a flood of foreign beef coming across just 
like a lot of the other agriculture products. Trying to find 
that niche market is harder.
    Mr. Allen. Right.
    Mr. Sanchez. But if we have some fair practices we can 
trade and work on the outside.
    Mr. Allen. And I wanted to get that fourth part, which is 
labor. We have a huge labor shortage which you have mentioned 
here in this country right now, and this Congress is doing 
nothing about it. I mean zero. And that is sad because we could 
grow this economy a lot faster if we could come together in a 
bipartisan way and fix this labor issue, and it can be fixed.
    Also, and we talk about the climate change issue and I look 
at you guys in the livestock business, I guess you know your 
cows are a bit of a problem, according to some who have 
knowledge about this. But I just got to tell you we are 
producing more than we have ever produced in this country by 
far, 120, 125 percent. In fact, the whole world is producing 
more than--I mean, we could feed the world if we could get rid 
of corrupt leadership.
    But I do have to tell this story. Somebody asked me when 
was the first time I had ever heard of climate change, and I 
said, ``Well, it was in Sunday School when I was a young 
person.'' I said that flood in Noah's time was a big deal. It 
had never rained before. Now, can you imagine that? Can you 
imagine? Because God watered the Earth through the dew on the 
Earth and then all of a sudden we had a storm and we had rain. 
Now, I guess that was the beginning of climate change and then 
I guess we got to figure out who is in charge of the weather 
and how we can help him figure this thing out. But I thought I 
would share that with you.
    And I yield back.
    The Chair. The chair now recognizes the gentlewoman from 
Maine, for 5 minutes.
    Ms. Pingree. Thank you, Madam Chair, and thank you for 
having a chance to ask you all another question. And thank you 
again for your indulgence in being here.
    Mr. White, I did want to ask you about climate change 
impacts on your farm, but I am also interested in the fact that 
you are sharing your expertise in rotational grazing to help 
other farmers, because that just seems increasingly important 
as people understand the value of permanent pasture and raising 
cattle on rotational grazing. Thank you for doing that. It 
seems like an interesting opportunity and I see also you are 
trying to expand your ability to raise grass-fed beef, which 
again comes at an increasing price and premium prices. People 
are more concerned about how things are raised, as Ms. LaFleur 
was talking about. Do you want to talk about either of those 
things and how it is going in your area?
    Mr. White. Yes, ma'am, thank you. The climate change issue, 
understanding that on my scale, it is hard. The biggest deal we 
are dealing with is the extremes.
    Ms. Pingree. Yes.
    Mr. White. The extreme cold, the extreme wet. I mean, I can 
say that 2019 was probably the worst year I have had farming. 
You build up. You do the savings account like I say. You try 
and do things right and you weather the storm, but this has 
been our worst year starting last year this time when it 
started raining and it wouldn't stop, then it got hot.
    Getting the information out as things change and helping 
farmers, especially the smaller ones, figure those things out. 
That is key, getting the information out. And doing it, as Mr. 
Sanchez says, having a person to talk to, and getting 
coordination between the different agencies is a big help.
    The rotational grazing in the direct marketing side of what 
I am doing, it is a real desire of mine to sell my beef to 
people I know.
    Ms. Pingree. Yes.
    Mr. White. We had gotten in with a butcher shop and we were 
selling one animal a week. And grass finishing one animal a 
week is a pretty big deal where I was selling five a year to 
friends of the elementary school crowd where the kids went, and 
that was nice, but then when we got to one a week, I mean, that 
was a big deal. But then that butcher shop didn't make it, so 
now we are starting over. And it is a big investment and it is 
something I want to do. The local food movement is big, but I 
just don't want to sell local beef. I want to sell good local 
beef and do it right, so it is a learning process and there is 
not a whole lot of people out there doing it, the rotational 
grazing, the management of sustainable farm.
    Ms. Pingree. Yes.
    Mr. White. All of those key words are--that is what we do 
every day.
    Ms. Pingree. Right.
    Mr. White. And trying to put it all together is the hard 
part. It is picking your head up from working hard and stopping 
and looking around and trying to figure it out and then go back 
to work and then there is a lot to try and figure out.
    Ms. Pingree. This wasn't actually on my list of questions, 
but since you are talking about it. I am the cosponsor of a 
bill called the PRIME Act (Processing Revival and Intrastate 
Meat Exemption Act) with Representative Massie, one of my 
Republican colleagues from Kentucky, and that is really to 
increase the availability of local slaughterhouses, and that 
lack of infrastructure seems to be a problem in most places, 
and it is not on the list but it is certainly a concern. And is 
that something you have had to deal with trying to raise local 
products and sell it locally?
    Mr. White. Very much so. You know, we have been selling 
freezer beef for 15 years.
    Ms. Pingree. Yes.
    Mr. White. And, it is an hour and a half drive to the 
nearest butcher shop. We have a new one that is about an hour 
away that is much bigger and holds a lot of promise, but it is 
being able to sell the product and it is educating the consumer 
about the product, and everybody wants 400 fillets and two 
packs of ground beef.
    Ms. Pingree. Right.
    Mr. White. It is like the cow is not built that way, there 
is a lot to work through, but more USDA licensing. Some of the 
western counties in Virginia, they have a mobile processing 
thing out there.
    Ms. Pingree. Yes.
    Mr. White. There are several states around the country 
where I have seen articles on that, and that is an excellent 
idea. And you know, people want to know where their food is 
coming from and it is a good thing.
    Ms. Pingree. Right. Mr. Sanchez, you were nodding your 
head. Have you experienced that, too?
    Mr. Sanchez. Yes, ma'am. As you help the beginning farmer, 
in the end it helps a lot on this side, but there is a big 
bathtub in that processing, in those slaughterhouse and the 
facilities to get that local quality product to the table. 
There is a big bathtub right there and that is a huge deficit 
right now.
    Ms. Pingree. Yes, it does seem like with increasing 
opportunities, particularly with people's interest in locally 
raised and processed animals and vegetables, everything else, 
we have lost a lot of our infrastructure that would have been 
there in places like Maine and other states. Fifty years ago 
this wouldn't have been so complicated, or a hundred years ago. 
Interestingly we had a lot more facilities to process food and 
process animals, and finding a way to get that infrastructure 
back seems critically important.
    Thank you. I yield back.
    The Chair. The chair now recognizes the Ranking Member, for 
5 minutes.
    Mr. LaMalfa. Thank you again.
    Back to Mr. Robinson here. Again, I wanted to, the subject 
being the access to these programs for different types of 
farmers and ranchers, I just wanted to let you elaborate a 
little bit on what have the gaps been in the outreach? What 
does the outreach really look like? Where are you--how do you 
find people? How do you connect them towards what they don't 
know about or don't seem to know about, or connect them in a 
way that maybe eligibility had been an issue and that gap is 
bridged? Please speak about that a little bit.
    Mr. Robinson. Yes, thank you, sir, for your question. The 
five percent set-asides, whether it is a minority producer or 
whether it is new and beginning or veteran producer, that does 
exist, but that money runs out at some point. But even in the 
presence of the five percent set-aside with both categories, a 
producer who would be eligible under those categories may not 
meet the ranking criteria as you have heard the panel talk 
about today. When I mentioned the ranking category, if that 
producer's conservation concern, whether it be water or soil, 
does not meet the conservation practice that is accepted by the 
state or accepted by the local conservation technical 
committee, well, then that new and beginning producer or 
minority producer may not be able to participate in the program 
for, not just eligibility purposes, but for ranking purposes.
    And so what we like about the farm bill is that it gives 
the State Conservationist quite a bit of flexibility to work 
with the ranking criteria in order to reach those producers 
that are being missed. And typically our organization will hear 
about a producer who has not participated because of ranking 
once they have been denied, and so what we do is, through the 
land-grant system, whether it is an 1862 or whether it is an 
1890 institution, we work to inform the State Technical 
Committees to inform the State Conservationist on using their 
flexibility to reach down and serve the producer that we are 
concerned about.
    Mr. LaMalfa. Okay, thank you.
    Touch briefly on educational opportunities, meaning just 
more directly telling people that don't know about that, and 
then I want to come to Mr. Sanchez for my final 1 minute, 
please.
    Mr. Robinson. There are a number of conferences that take 
place around the country annually that we attend, so farmers 
have a chance to become educated. Then our field organizations 
have specialists in conservation who will go out and meet face 
to face with the individual farm family.
    Mr. LaMalfa. For those that don't go to conferences, per 
se, right?
    Mr. Robinson. Yes, sir.
    Mr. LaMalfa. Yes. Yes.
    Mr. Robinson. Yes, sir. Those opportunities are available, 
but the main point that we make here is that if the State 
Technical Committee or if the Local Technical Committee does 
not understand the natural resource concern of a minority 
farmer or a new and beginning farmer, which is different from a 
thousand-acre farm, then most likely that policy that is set by 
the State Technical Committee will actually miss the need of 
the smaller farm.
    Mr. LaMalfa. Thank you.
    Mr. Sanchez, you kind of perked my ears up on that 10 year 
end date. That really kind of struck me, for veterans where 
there is not a lot of end date on being a veteran, et cetera. 
Speak a little bit about in general, your own experience was 
that you applied on a non-veteran status and you were turned 
down, but veteran status did put you in play there. So, just 
touch a little bit in the remaining time on that and how 
important that was and how did you find out about that.
    Mr. Sanchez. Yes, sir, thank you.
    The initial EQIP that I did apply for was under beginning 
farmer and rancher and that was in 2011. In 2014 I wasn't aware 
of the veteran, so I applied for a second and I received it 
this last year under the veteran status and it was really 
through the Farmer Veteran Coalition and talking with them that 
I learned that the farm bill had changed from the original time 
I applied in 2011 to recognize veterans as an underserved and 
minority group.
    Mr. LaMalfa. How did you find out about the Farmer Veteran 
Coalition?
    Mr. Sanchez. I just talked to one of my friends about it 
and they pointed me to the website, because as a National 
Guardsman----
    Mr. LaMalfa. That reminds me of the scene in A Few Good Men 
where they are trying to find where in the manual how you find 
the Mess Hall.
    Mr. Sanchez. Right.
    Mr. LaMalfa. That is something else.
    Mr. Sanchez. Exactly. Through the National Guard I had a 
lot of people out there, farmer, rancher and everything, and 
they were like, hey, have you heard about this, and I found it 
and I applied for one of the scholarships to go to the 
conference and that is how I heard about it was at the 
conference in Kansas City.
    Mr. LaMalfa. Okay. I know I am a little over time.
    All the way down the panel, just a one or two-word answer, 
are we doing better, yes or no? Irvin and everybody.
    Mr. Robinson. Yes, sir, we are doing better.
    Mr. Sanchez. Yes, sir, I would agree. It is getting better. 
It is not there yet but it is getting better.
    Ms. LaFleur. Yes, sir, getting better but always 
opportunity for improvement.
    Mr. LaMalfa. Sure. Thank you.
    Mr. White. Yes, sir. I think you need more people.
    Mr. LaMalfa. Thank you.
    Mr. White. To get boots-on-the-ground. Thank you.
    Mr. LaMalfa. Thank you. I appreciate that.
    The Chair. Before we adjourn I would invite the Ranking 
Member to make any closing remarks that he may have.
    Mr. LaMalfa. I already used up my extra minutes. Thank you, 
Madam Chair.
    The Chair. Thank you, Ranking Member.
    Well, I want to thank our witnesses today, and I want to 
emphasize our commitment to continuing our efforts to ensure 
agriculture is a profession that values and enables the 
contributions of farmers and ranchers of all backgrounds.
    I thank you for the insights that you have brought to this 
discussion relating to current efforts under the 2018 Farm 
Bill, what is working, what could be better, and thank you for 
the frank assessment that we are doing better but we can always 
continue to do better.
    When we are talking about some of the efforts and the 
endeavors that you all are pursuing, it is fantastic to see the 
tie that they all bring together in terms of what rotational 
grazing is doing, not just for the farmers who are engaging in 
it, but for our efforts to address climate change and how 
ranchers like yourselves, Mr. White, are able to bring that 
knowledge in yearly investments and infrastructure back to 
other farmers in the area.
    As we have heard today, not only is it important, but it is 
required that if we are going to mitigate the effects of 
climate change, support the next generation of our producers, 
and create economic opportunities across our rural communities, 
we need to understand the challenges that we are facing in 
rural America. Rural America is facing numerous challenges, but 
fortunately we have a diverse and growing number of farmers 
that are eager to do the work and we must ensure here in 
Congress and across the country that every farmer has the tools 
that they need to succeed across the country.
    Thank you so much for being with us today. I appreciate 
your time, your frank answers.
    And under the Rules of the Committee, the record of today's 
hearing will remain open for 10 days to receive additional 
material and supplementary written responses from the witnesses 
to any question posed by a Member.
    This hearing of the Subcommittee on Conservation and 
Forestry is adjourned.
    [Whereupon, at 12:44 p.m., the Subcommittee was adjourned.]

                                  [all]
</pre></body></html>
